INFORMATION ACCESS PROGRAM




           U.S. Department of Energy
           Office of Inspector General
           Office of Inspections and Special Inquiries




 Inspection Report
 Office of Intelligence and
 Counterintelligence Internal Controls
 Over the Department of Energy’s
 Sensitive Compartmented Information
 Access Program




 DOE/IG-0790                             March 2008
OFFICE OF INTELLIGENCE AND COUNTERINTELLIENCE
INTERNAL CONTROLS OVER THE DEPARTMENT OF
ENERGY’S SENSITIVE COMPARTMENTED INFORMATION
ACCESS PROGRAM


TABLE OF
CONTENTS

              OVERVIEW

              Introduction and Objective            1

              Observations and Conclusions          2


              DETAILS OF FINDINGS

              Background                            3

              Removal from SCI Roster               3

              Administrative Debriefing             4

              Employment Status Change              5

              Incomplete Nondisclosure Agreements   6


              RECOMMENDATIONS                       7


              MANAGEMENT COMMENTS                   7


              INSPECTOR COMMENTS                    7


              APPENDICES

              A. Scope and Methodology              8

              B. Related OIG Reports                9

              C. Management Comments                10
Overview

INTRODUCTION     The Department of Energy (DOE) is 1 of the 16 members of the
AND OBJECTIVES   U.S. Government’s Intelligence Community and serves as the
                 premier technical intelligence resource in the areas of nuclear
                 weapons, nonproliferation, energy, science, and technology and
                 emerging nuclear threats. In addition to providing intelligence
                 analyses, DOE offers specialized technology development and
                 operational support to both intelligence and law enforcement
                 agencies. DOE accomplishes its intelligence mission by drawing
                 from broad technical expertise located throughout the Department
                 complex, including the National Laboratories, and uses Sensitive
                 Compartmented Information (SCI) that is shared between members
                 of the Intelligence Community. SCI is a designation given to
                 classified information derived from intelligence sources, methods,
                 or analytical processes that requires formal access control systems.

                 DOE’s Office of Intelligence and Counterintelligence (IN) is
                 responsible for granting SCI access to DOE Federal and contractor
                 employees who need access to such intelligence information.
                 Individuals must have an active Top Secret or “Q” clearance to be
                 granted SCI access authorization.

                 The objective of this inspection was to determine if IN had
                 adequate internal controls for granting, maintaining, and
                 terminating SCI access authorizations to DOE Federal and
                 contractor employees. As of December 2006, there were 5,240
                 SCI access holders across the DOE complex. This review focused
                 on the 969 Federal and contractor employees listed on the
                 Headquarters SCI access roster. The Office of Inspector General
                 (OIG) is currently completing a second review of internal controls
                 over SCI access from a field element perspective.




Page 1                            Office of Intelligence and Counterintelligence
                                  Internal Controls over the Department of
                                  Energy’s Sensitive Compartmented
                                  Information Access Program
OBSERVATIONS AND   We concluded that IN did not have adequate internal controls over
CONCLUSIONS        its SCI access program. From a judgmental sample of 199 of the
                   969 individuals on the Headquarters SCI access roster, we found
                   that:

                   • IN was not timely in removing individuals from the SCI access
                     roster who no longer needed SCI access: 17 individuals who
                     had already left the Department or had been debriefed from SCI
                     access remained on the Headquarters SCI roster;

                   • Five individuals apparently were “administratively debriefed”
                     from SCI access by IN without that office making all attempts
                     to contact those individuals to ensure they received instructions
                     regarding their continued obligation to safeguard SCI.
                     (Administrative debriefing occurs when an official from IN
                     annotates the individual’s Debriefing Acknowledgement
                     indicating that he/she is “Unavailable to Sign”);

                   • Four individuals did not properly rejustify their need for
                     continued SCI access as a result of job or employment status
                     change; and,

                   • Five nondisclosure agreements for SCI access, which serve as
                     legal agreements between the individual and the Government,
                     were not properly signed or witnessed.

                   Past reviews by the OIG at various DOE sites have identified
                   weaknesses in the internal controls designed to ensure individuals’
                   security clearances and accesses are terminated appropriately and
                   expeditiously. (A list of the associated reports is located in
                   Appendix B.) IN established an SCI debriefing policy in response
                   to one of those reviews. However, based upon our findings during
                   this review, we remain concerned that IN is not following existing
                   policies and believe that IN needs to establish additional internal
                   controls, such as periodic internal reviews, to ensure that
                   requirements are followed regarding granting, maintaining, and
                   terminating SCI access.




Page 2                                              Observations and Conclusions
Details of Findings

BACKGROUND            We reviewed a judgmental sample of 199 (20 percent) of the 969
                      Federal and contractor employees listed on the Headquarters SCI
                      access authorization roster as of December 2006.

                      Pursuant to DOE Order 5639.8A, “Security of Foreign Intelligence
                      Information and Sensitive Compartmented Information Facilities,”
                      the Department must implement Director of Central Intelligence
                      Directives (DCIDs) 1/19 and 6/4 for the protection of SCI.
                      DCID 1/19, “Security Policy for Sensitive Compartmented
                      Information and Security Policy Manual,” establishes the policies
                      and procedures for the security, dissemination, and use of SCI.
                      DCID 6/4, “Personnel Security Standards and Procedures
                      Governing Eligibility for Access to Sensitive Compartmented
                      Information,” establishes the standards, procedures, and security
                      programs for the protection of SCI.

                      As a result of a previous OIG report published in 2006, IN
                      produced the “Sensitive Compartmented Information Debriefing
                      Policy No. 001-06.” This policy established criteria and guidelines
                      to administer debriefings, including administrative debriefings.

REMOVAL FROM          We found that IN was not timely in removing individuals from the
SCI ROSTER            SCI access roster who no longer needed SCI access. Specifically,
                      17 individuals who had already left the Department or had been
                      debriefed from SCI access remained on the Department’s SCI
                      roster. DCID 1/19 states that when a previously established need-
                      to-know no longer exists due to reorganization, reassignment,
                      change in duties, or any other reason, the SCI access shall be
                      cancelled and the individual debriefed from SCI. Debriefing is the
                      final instruction provided to individuals regarding their continued
                      obligation for safeguarding SCI, as defined by DCID 6/4. An IN
                      official told us that an individual is terminated from SCI access
                      when the individual is debriefed.

                      We determined that 14 of the 17 individuals had left DOE but had
                      not been debriefed and removed from the SCI access roster. Based
                      on the separation dates, these individuals remained on the SCI
                      roster between 2 months and 64 months after their departure or the
                      termination of their DOE clearance. In one instance, IN received a
                      request from the National Nuclear Security Administration to delay
                      removal of an individual from the SCI roster for a few months and
                      allowed that individual to remain on the roster after his departure
                      from DOE. However, IN did not follow up on the issue, and the
                      individual remained on the roster 1½ years later, until we identified
                      the lapse. Further, as noted previously, a Q or Top Secret



Page 3                                                                Details of Findings
                 clearance is a prerequisite to having SCI access. We were told by
                 IN that if a Q clearance were terminated, then the SCI access
                 would also be discontinued immediately. Yet we determined that
                 3 of the 14 individuals had their Q clearances terminated in August
                 2001, June 2006, and September 2006, respectively. The
                 individual whose Q clearance was terminated in August 2001 was
                 detailed to DOE from another agency and should have been
                 removed from DOE’s SCI roster when he left. Responsible IN
                 officials were unaware of the detailee’s departure until we brought
                 the issue to their attention.

                 Finally, we identified that the remaining 3 of the 17 individuals
                 from the roster had been debriefed from SCI and had signed the
                 requisite out-processing SCI nondisclosure agreement, yet they
                 were still listed as holding SCI access authorizations. These
                 individuals remained on the SCI roster between 9 and 27 months
                 after having been debriefed from SCI. An IN official agreed that
                 these individuals should not have been on the SCI roster.

                 The Intelligence Community maintains a database of the current
                 status of individuals’ clearances and SCI accesses. Failure to
                 remove DOE individuals from the SCI roster could result in
                 inaccurate reporting to the Intelligence Community and cause other
                 agencies to rely on inaccurate clearance and access information,
                 resulting in individuals potentially gaining access to SCI with
                 expired authorizations.

ADMINISTRATIVE   We found that five individuals apparently were administratively
DEBRIEFING       debriefed from SCI access by IN without IN making all attempts to
                 contact those individuals to ensure they received instructions
                 regarding their continued obligation to safeguard SCI.

                 Debriefing from SCI is intended to remind individuals of their
                 continued obligation to safeguard SCI and to have them sign a
                 nondisclosure agreement. Pursuant to DCID 6/4, the debriefing
                 includes, among other things, reading appropriate sections of U.S.
                 laws regarding espionage and unauthorized disclosure of classified
                 information; acknowledging lack of possession of any documents
                 containing SCI; and agreeing to report to the Federal Bureau of
                 Investigation information regarding any attempt by an individual to
                 solicit classified information. IN’s “Sensitive Compartmented
                 Information Debriefing Policy No. 001-06” states that all attempts
                 should be made for a personal debriefing (in-person, by telephone,
                 or by mail) and that administrative debriefings should only be
                 performed under extenuating circumstances, such as medical
                 illness or death. Administrative debriefing occurs when an official


Page 4                                                         Details of Findings
                from IN annotates the individual’s Debriefing Acknowledgement
                indicating that he/she is “Unavailable to Sign.”

                In five instances, when the OIG informed an IN official that there
                were individuals who had left DOE and were still on the SCI
                roster, the IN official contacted the program offices that had
                employed the individuals and verified that the individuals had left
                DOE and should no longer have been on the SCI roster.

                Regarding two of these individuals, the IN official, in the presence
                of the OIG, signed the debriefing forms stating that the individuals
                were administratively debriefed, without making any further
                attempt to locate these individuals for an actual debriefing.

                Regarding the other three individuals, we had concerns that they
                were similarly administratively debriefed after we identified that
                they were still on the SCI roster. Although we did not observe the
                action taken by the IN official to follow up on the individuals’
                unsigned debriefing forms, subsequently we observed that all three
                forms were simply signed by an IN official. This was done within
                one day of IN having been notified by the OIG that the individuals
                should have been removed from the SCI roster. The forms were
                not signed by the individuals, there was no statement on each
                debriefing form that the individual was unavailable to sign for the
                debriefing, and there was nothing in the files to indicate IN had
                made any attempts to locate the individuals.

EMPLOYMENT      We found that four individuals did not properly rejustify their need
STATUS CHANGE   for continued SCI access as a result of job or employment status
                change. These employees had transferred internally within DOE
                or had changed from Federal to contractor employee status.
                DCID 1/19 states that when a previously established need-to-know
                no longer exists due to reorganization, reassignment, change in
                duties, or any other reason, the SCI access shall be cancelled and
                the individual debriefed from SCI. We were told by an IN official
                that if an individual transfers to another program office, becomes a
                contract employee, or has changed personnel status, that
                individual’s need for SCI must be rejustified or terminated.

                We were told by an IN official that one way that IN can determine
                a change in personnel status is through self-reporting during the
                biennial SCI security refresher training. Despite this apparent
                safeguard, one of the individuals we had identified had transferred
                to another program office more than two years earlier and had
                subsequently attended SCI refresher training. After we identified



Page 5                                                         Details of Findings
                the issue, IN determined that the individual no longer needed SCI
                access, and he was subsequently debriefed.

                The second employee we identified had retired from Federal
                service in 2002, became a contract employee in the same office
                doing the same work, but did not have an SCI rejustification, as
                required. An IN official agreed that the employee’s office should
                have rejustified the individual’s SCI access.

                The third employee we identified had transferred to another
                program office several months prior. IN officials were unaware of
                this personnel change and subsequently had the individual provide
                another justification for maintaining SCI access.

                The fourth employee we identified had transferred to another
                program office, and the rejustification document submitted for the
                employee was signed by his supervisor, who did not have SCI
                access. DCID 1/19 states that a “need-to-know” determination
                should be made by an authorized individual, having the appropriate
                security clearances and access approvals, certifying that a
                prospective SCI recipient requires access to specific classified
                information to perform his duty. Upon our inquiry, IN verified
                that the individual’s supervisor did not have SCI access and could
                not have properly made the request. IN subsequently approved a
                properly executed rejustification request for the individual.

INCOMPLETE      We found that five nondisclosure agreements for SCI access,
NONDISCLOSURE   which serve as legal agreements between the individual and the
AGREEMENTS      Government, were not properly signed or witnessed. In three
                instances, the portion of the nondisclosure agreement form
                acknowledging an understanding of the responsibilities for holding
                SCI access was not signed by the individuals, as required. The
                remaining two nondisclosure agreements were not signed by an IN
                witness and the section of the form acknowledging security
                briefing indoctrination was not signed by the individual receiving
                the SCI access.

                DCID 1/19 states that, as a provision of access to SCI, individuals
                must sign an authorized nondisclosure agreement and that failure
                to do so is cause for denial or revocation of existing SCI access.
                The nondisclosure agreement serves as a legal agreement between
                the individual and the Government that the individual has been
                granted SCI access and that the individual understands his
                obligations and the criminal penalties for any unauthorized
                disclosure of SCI. An IN official agreed that the forms should



Page 6                                                         Details of Findings
                  have been properly signed and subsequently had the individuals
                  sign and properly complete the nondisclosure agreements.

RECOMMENDATIONS   We recommend that the Director, Office of Intelligence and
                  Counterintelligence, ensures that the policies for granting,
                  maintaining, and terminating SCI access are followed so that:

                  1. Individuals no longer requiring SCI access are removed from
                     the Department’s SCI roster on a timely basis;

                  2. Debriefings are completed in accordance with IN policy;

                  3. Nondisclosure agreements are properly executed; and

                  4. A periodic review of SCI access holders is accomplished at
                     Headquarters and throughout the Department complex to
                     ensure that all SCI access program requirements, including
                     both employment status and rejustification of access, are being
                     followed.

MANAGEMENT        In comments to a draft version of this report, IN management
COMMENTS          concurred with our recommendations and identified corrective
                  actions. Management’s comments are included in their entirety at
                  Appendix C.

INSPECTOR         We found management’s comments to be responsive to our
COMMENTS          recommendations.




Page 7                                  Recommendations
                                        Management and Inspector Comments
Appendix A

SCOPE AND     We conducted our inspection fieldwork between December 2006
METHODOLOGY   and May 2007. We interviewed officials from DOE’s Office of
              Intelligence and Counterintelligence and DOE’s Office of Health,
              Safety and Security. We reviewed applicable policies and
              procedures pertaining to SCI access. We obtained an SCI roster of
              DOE Headquarters individuals and reviewed the SCI access
              personnel files of select individuals on the SCI roster.

              As part of our review, we evaluated implementation of the
              “Government Performance and Results Act of 1993” in the context
              of activities included in our review. We did not identify any
              performance measure issues regarding DOE’s SCI access program.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 8                                                Scope and Methodology
Appendix B

RELATED OIG   The following OIG reports involve work similar to this inspection:
REPORTS
                • “Selected Aspects of the East Tennessee Technology Park's
                  Security Clearance Retention Process” (DOE/IG-0779,
                  October 2007);

                • “Badge Retrieval and Security Clearance Termination at
                  Sandia National Laboratory-New Mexico” (DOE/IG-0724,
                  April 2006);

                • “Security Clearance Terminations and Badge Retrieval at the
                  Lawrence Livermore National Laboratory” (DOE/IG-0716,
                  January 2006);

                • “Security and Other Issues Related to Out-Processing of
                  Employees at Los Alamos National Laboratory”
                  (DOE/IG-0677, February 2005);

                • “Personnel Security Clearances and Badge Access Controls
                  at Selected Field Locations” (DOE/IG-0582, January 2003);
                  and

                • “Personnel Security Clearances and Badge Access Controls
                  at Department Headquarters” (DOE/IG-0548, March 2002).




Page 9                                                   Related OIG Reports
Appendix C




Page 10      Management Comments
Appendix C (continued)




Page 11                  Management Comments
Appendix C (continued)




Page 12                  Management Comments
                                                                    IG Report No. DOE/IG-0790

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
